HHS/OIG-Audit--"Report on the Audit of Administrative Costs Incurred by Nationwide Mutual Insurance Company Under Part B of the Health Insurance for the Aged and Disabled Program, (A-05-91-00064)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Report on the Audit of Administrative Costs Incurred by Nationwide Mutual
Insurance Company Under Part B of the Health Insurance for the Aged and Disabled
Program," (A-05-91-00064)
October 24, 1991
Complete Text of Report is available in PDF format
(1.16 mb). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final audit report prepared under audit contract with a certified public
accounting firm presents the results of the administrative costs claimed by
Nationwide Mutual Insurance Company (Nationwide). The review disclosed that
administrative costs claimed by Nationwide for Health Insurance for the Aged
and Disabled program contained amounts recommended for financial adjustments
of $3.3 million. We are recommending that Nationwide make appropriate financial
adjustments in these amounts.